No.

IN THE
SUPREME COURT OF THE UNITED STATES

Petitioner
Petitioner

Richard J. Kelly,
Ethel J. Kelly,
vs.

Respondent

Marjory Motiaytis,
PROOF OF SERVICE

I, Richard J. Kelly and Richard J. Kelly, do swear or declare that on this date,
September 2, 2020, as required by Supreme Court Rule 29 I have served the
enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Amy Lonergan
Finn & Finn, Ltd.
128 N. West Street
Waukegan, IL 60085
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 2, 2020
$jLS4<je^Ljj

Richard J. l^Sly

*

Ethel J. Kelly

-tCEIVED
sep t 0

